COCKLE

Legal Briefs

Est. 1923

E-Mail Address:
contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 20-166

MICHAEL SCOTT ANGLESEY, D.C.;
ELISEO GUTIERREZ;
VERONICA GUTIERREZ,
Petitioners,

v.
ALLIED PROFESSIONALS INSURANCE COMPANY,
ARISK RETENTION GROUP, INC., an Arizona corporation,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that 1 did, on the 14th day of October, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the RESPONDENT’S BRIEF IN SUPPORT OF PETITION FOR
WRIT OF CERTIORARI in the above entitled case. All parties required to be served have been served by third-party
commercial carrier for delivery within 3 calendar days, Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
MICHAEL B. KADISH MICHAEL J. SCHROEDER
(No. 313138)* (No. 188390)
THE KADISH LAW GROUP, P.C, MICHAEL J. SCHROEDER P.C.
3122 Santa Monica Bivd., One Legacy West
Suite 200 7950 Legacy Drive,
Santa Monica, California 90404 Suite 735
Telephone: (424) 239-6210 Plano, Texas 75024
MKadish@ (714) 647-6488
KadishLawGroup.com MikeJSchroe@gmail.com

Counsel for Respondent
*Counsel of Record

Subscribed and sworn to before me this 14th day of October, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Kebraska
Re eter css Kense. 9. dlooe Quduw Kh, Chel

Notary Public Affiant

fay Comm, Exp. Seprariber 5, 2623.

 

 

40226
Counsel for Petitioners:

Andrea J. Clare

Counsel of Record
George E. Telquist
Telare’ Law, PLLC
1321 Columbia Park Trail
Richland, WA 99352
(509) 737-8500
andrea@telarelaw.com
george@telarelaw.com
